gen
i

2311 Douglas Street CC ICKL E s E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

TRON STONE REAL ESTATE FUND, I, L.P.,
IRON STONE REAL ESTATE GROUP, I LLC, and
ANDREW V. EISENSTEIN,
Petitioners,

Vv.

STEPHEN RATNER, AUDREY RATNER, and
DR. ROBERT OSTOYICH,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 2565 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3 Ist day of July, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Nebraska
A RENEE J, GOSS Ronse. 9. Mew L/ Queda Kh. Chih

My Comm. Exp. September ยง, 2023
Notary Public Affiant

 

39972
